                            CLOSEOUT FOR M93030013
                                                                      ion of scientific forgery
                                                                   The letter alleged that the

                                                               etitious scientific forgery in
                                                                  -derived data he and
others had published. The subject allegedly dismissed program errors brought to his
attention as simple "bugs" in the program.


,   The author of the an
            Scientists




from diverse systems sometimes results in the generation of erroneous solutions. Program
users generally cross check the program's results with independently derived results to
confm those generated by the program. When notified of computer errors the subject has
made the necessary corrections, notifled the scientific community, and distributed a corrected
version of the program. The scientists said that the s                      e of the program
showed that the allegation of forgery was without substance. Both inquiries concluded there
was no substance to the allegation and that it had not been made in good faith.
                                                         ---   -
     OIG received copies of the
         .
         .                                                               inquiry reports
from                    OIG a    c    2     conclusion that there was nEubstance to the
allegation and that no misconduct had occurred.

     After reviewing the information supplied by the institution, OIG concluded that it had
adequately addressed this allegation and that the finding of no misconduct could be adopted
in lieu of an OIG inquiry.




                                         Page 1 of 2
Donald E. Buzzelli
                                               -          n  w
                                                   James JJ~ g o l e n i k
                                                           I
                                                                             6 / 9 2

Deputy Assistant Inspector General,                Assistant Inspector General for Oversight
Oversight




                 -               4k/47
Linda Nancy Birnbaum
Assistant Counsel to the Inspector General



cc:    Assistant Inspector General for Oversight
       Inspector General




                                         Page 2 of 2

                                             93-13
